         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report



       EPA Should Improve Its
       Contractor Performance Evaluation
       Process for Contractors Receiving
       Recovery Act Funds
       Report No. 10-R-0113

       April 26, 2010
Report Contributors:                               Janet Kasper
                                                   Matthew Simber
                                                   Mike Davis
                                                   Marcia Hirt-Reigeluth
                                                   Jennifer Hutkoff
                                                   Heather Layne




Abbreviations

CO            Contracting Officer
CPARS         Contractor Performance Assessment Reporting System
DCAA          Defense Contract Audit Agency
EPA           U.S. Environmental Protection Agency
EPAAR         EPA Acquisition Regulation
FAR           Federal Acquisition Regulation
FMR           Financial Monitoring Review
NIH CPS       National Institutes of Health Contractor Performance System
OAM           Office of Acquisition Management
OIG           Office of Inspector General
OMB           Office of Management and Budget
PO            Project Officer
QAP           Quality Assurance Plan
PPIRS         Past Performance Information Retrieval System
RCRA          Resource Conservation and Recovery Act
SRRPOD        Superfund/RCRA Regional Procurement Operations Division




Cover Illustration: The logo for the American Recovery and Reinvestment Act of 2009.
                                                                                                          10-R-0113
                      U.S. Environmental Protection Agency                                             April 26, 2010
                      Office of Inspector General


                      At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This Review
                                  EPA Should Improve Its Contractor
We conducted this audit of the    Performance Evaluation Process for
process to evaluate contractors
that received or are expected     Contractors Receiving Recovery Act Funds
to receive American Recovery
and Reinvestment Act of 2009       What We Found
(Recovery Act) funds from the
U.S. Environmental Protection     EPA had not completed in a timely manner 30 of 36 (83 percent) of the required
Agency (EPA) to determine         contractor performance evaluations for contractors awarded Recovery Act funds.
whether EPA completed             Contracting officers (COs) are required to complete and document the evaluation
contractor performance            within 95 business days after each 12 months of contract performance. On
evaluations in a timely manner    average, EPA completed the evaluations 109 business days late, generally because
and considered all sources of     there was no system in place to monitor evaluation timeliness. Consequently,
information during the            contractor past performance evaluation information was not available to EPA
contractor performance            when it awarded a new Recovery Act contract totaling $5.4 million.
evaluation process.               Consideration of contractor performance prior to award reduces the risk of
                                  providing funds to a contractor with a history of poor performance.
Background
                                  Further, COs did not consider all available sources of information when preparing
In July 2009, EPA decided to      performance evaluations for contractors to which they awarded Recovery Act
obligate approximately            funding. When preparing the performance evaluation of a contractor, the CO is
$211 million in Recovery Act      required to use information from the technical and contracting offices. EPA did
funds to Superfund                not always provide the Financial Monitoring Review, Defense Contract Audit
contractors. Office of            Agency, and Office of Inspector General report directly to COs. COs found the
Management and Budget             database in which the Office of Acquisition Management houses this information
Recovery Act guidance             difficult to access. As a result, EPA awarded $109 million in Recovery Act funds
requires agencies to actively     to contractors with cost control and other performance issues.
monitor contracts to ensure
that performance, cost, and        What We Recommend
schedule goals are met. The
guidance emphasizes the           We recommend that the Assistant Administrator for Administration and
importance of completing          Resources Management develop a system to monitor and verify the timeliness of
timely contractor performance     performance evaluations, revise Quality Assurance Plan requirements, maintain
evaluations.                      reports in an electronic system that COs can access, and require COs to consider
                                  annual performance evaluation results. EPA agreed with the findings and
For further information,          provided corrective action plans for addressing all of the recommendations in the
contact our Office of
Congressional, Public Affairs     report.
and Management at
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20100426-10-R-0113.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                          April 26, 2010

MEMORANDUM

SUBJECT:	 EPA Should Improve Its Contractor Performance Evaluation Process
          for Contractors Receiving Recovery Act Funds
          Report No. 10-R-0113


FROM:          Melissa M. Heist
               Assistant Inspector General for Audit

TO:	           Craig E. Hooks, Assistant Administrator
               Office of Administration and Resources Management


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
EPA managers, in accordance with established resolution procedures, will make final
determinations on matters in this report.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $429,334.

Action Required

In responding to the draft report, the Agency provided corrective action plans for addressing all
of the recommendations. Therefore, a response to the final report is not required. The Agency
should track corrective actions not implemented in the Management Audit Tracking System.
We have no objections to the further release of this report to the public. The report will be
available at http://www.ega.gov/oig.

If you or your staff have any questions regarding this report, please contact Janet Kasper at
(312) 886-3059 or kasper.janet@epa.gov, or Michael Davis at (513) 487-2363 or
davis.michaeld@epa.gov.
EPA Should Improve Its Contractor                                                                                        10-R-0113
Performance Evaluation Process for
Contractors Receiving Recovery Act Funds


                                  Table of Contents 


Chapters 

   1	   Introduction ........................................................................................................     1         


                Purpose ......................................................................................................    1             

                Background ................................................................................................       1             

                Noteworthy Achievements ..........................................................................                3             

                Scope and Methodology .............................................................................               3             

                Prior Report ................................................................................................     4             


   2	   EPA Did Not Complete Timely Contractor Performance Evaluations...........                                                 5         


                Timeframes Exist for Completing Evaluations.............................................                          5

                Evaluations Not Completed in a Timely Manner .........................................                            5

                Various Reasons Noted for Late Evaluations .............................................                          6

                Evaluation Information May Not Be Available to Contracting Officials ........                                     7

                EPA Plans to Modify QAP Policy to Meet New OMB Requirements...........                                            7

                Recommendations .....................................................................................             8             

                Agency Comments and OIG Evaluation......................................................                          8


   3	   EPA’s Contractor Performance Evaluations Do Not Consider 

        All Available Sources of Information................................................................                      9         


                Federal Acquisition Regulation Requires Soliciting Input ............................                             9

                EPA Did Not Consider FMR, DCAA, or OIG Reports .................................                                  9

                Contracting Officers Are Not Aware of Available Contractor 

                   Performance Information ......................................................................                11 

                Contracts May Be Awarded to Contractors with Performance 

                   and Cost Control Issues .......................................................................               11 

                Recommendations ......................................................................................           12                 

                Agency Comments and OIG Evaluation......................................................                         12 


   Status of Recommendations and Potential Monetary Benefits..............................                                       13     




Appendices 

   A    OIG Review of Planned Recovery Act Contracts ............................................                                14     


   B    Agency Response to Draft Report....................................................................                      15     


   C    Distribution .........................................................................................................   17     

                                                                                  10-R-0113





                               Chapter 1

                                Introduction
Purpose
          In 2009, the U.S. Environmental Protection Agency (EPA) planned to obligate
          approximately $211 million in American Recovery and Reinvestment Act of 2009
          (Recovery Act) funds to Superfund contractors. Considering contractor
          performance evaluations for prior contracts reduces the risk that EPA will award
          Recovery Act funds to contractors with a history of poor performance. We
          conducted this audit of EPA Recovery Act contractors to determine whether EPA
          completed contractor performance evaluations in a timely manner and considered
          all sources of information when performing contractor performance evaluations.

Background

          Recovery Act Guidance

          The Recovery Act provided EPA with $7.2 billion to stimulate the national
          economy, including $600 million to the Hazardous Substance Superfund program
          for site clean-up.

          On March 26, 2009, EPA’s Office of Acquisition Management (OAM), within the
          Office of Administration and Resources Management, issued a flash notice titled
          Initial Implementing Contract Guidance Document for the American Recovery
          and Reinvestment Act. This notice indicated the Agency’s procurement strategy
          was to combine the use of existing contracts and new acquisitions to obligate
          funding to meet Recovery Act requirements. The notice also outlined the
          Agency’s plan to use existing Headquarters and regional Superfund contracts for
          Recovery Act environmental clean-up, including Remedial Action Contracts,
          Emergency and Rapid Response Services contracts, and Superfund Technical
          Assessment and Response Team contracts.

          On April 3, 2009, the Office of Management and Budget (OMB) issued Updated
          Implementing Guidance for the American Recovery and Reinvestment Act of 2009
          to help agencies implement the Act. Section 6.3 states:

                 Agencies should actively monitor contracts to ensure that
                 performance, cost, and schedule goals are being met, including . . .
                 completing timely contractor performance evaluations that
                 accurately reflect the contractor’s actual performance, supported
                 by appropriate documentation.



                                          1

                                                                          10-R-0113



Contractor Performance Evaluations

In May 2000, OMB’s Office of Federal Procurement Policy issued Best Practices
for Collecting and Using Current and Past Performance Information, which
stated that contractors’ past performance was a good indicator of future
performance.

EPA Acquisition Regulation (EPAAR) 1509.170-5 states EPA contracting
officers (COs) and technical evaluation panels shall use contractor past
performance evaluations when making decisions about future EPA acquisitions,
and to inform other agencies and departments about a contractor’s performance
on an EPA contract. The regulation requires COs to complete contractor
performance evaluations in a timely manner and use the National Institutes of
Health Contractor Performance System (NIH CPS) to record evaluations for all
contract performance periods. COs must initiate a contractor performance
evaluation within 5 business days after the end of the performance period and
finalize the evaluation within 90 business days after evaluation initiation. The
complete EPA contractor performance evaluation process involves various
Agency staff:

   •	 The CO initiates the evaluation in the NIH CPS at the end of each
      12-month contract performance period and then notifies the project officer
      (PO) that the evaluation has been initiated.
   •	 The PO contacts the contracting officer representatives and requests that
      these representatives evaluate the contractor performance and submit
      scores and any accompanying narrative. The PO summarizes the scores
      and narrative, enters the information into NIH CPS, and notifies the CO
      that all information is in the system.
   •	 The CO then communicates to the contractor that the scores are available
      for review in NIH CPS. The contractor has 30 days to provide final input,
      at which point the CO finalizes the scores in the system.

EPA Quality Assurance Plans

EPA uses Quality Assurance Plans (QAPs) to ensure COs award and administer
their contracts in a high-quality manner, as well as ensure staff remains up to date
on changes in the acquisition environment. Under EPA’s QAP, each contracting
office within EPA is required to develop, implement, and maintain its own unique
QAP to ensure its contracting processes and products are compliant with
governing rules and are consistently of high quality. OAM’s Policy, Training,
and Oversight Division performs QAP reviews on a 3-year cycle to assess how
effectively each organization’s QAP was implemented and sustained.




                                 2

                                                                                   10-R-0113



Noteworthy Achievements
         EPA Region 7 has taken a number of actions to safeguard Recovery Act funds.
         The Region’s Recovery Act Implementation Plan is intended to ensure quality
         and compliance in all aspects of contract activities relating to the Recovery Act.
         The plan requires activities such as weekly meetings between contract and
         program staff to foster good communications; the use of a Recovery Act checklist
         for all actions, including press releases, award notices, and modifications; and the
         preparation of a Memorandum of Contractor Performance documenting the
         assessment of the contractor’s performance based on the findings of each weekly
         meeting. The Region 7 plan assists in administering and monitoring contracts
         with Recovery Act funds.

Scope and Methodology
         We conducted this performance audit in accordance with generally accepted
         government auditing standards issued by the Comptroller General of the United
         States. These standards require that we plan and perform the audit to obtain
         sufficient, appropriate evidence to provide a reasonable basis for our findings and
         conclusions based on our audit objective. We believe that the evidence obtained
         provides a reasonable basis for our findings and conclusions based on our audit
         objective.

         We conducted the audit from May 2009 to March 2010. We obtained an
         understanding of the contractor performance evaluation process through analysis
         of laws, regulations, and guidance. We reviewed the Federal Acquisition
         Regulation (FAR), EPA Recovery Act guidance, EPAAR, EPA’s Acquisition
         Handbook, the EPA Contract Management Manual, OMB guidance, and U.S.
         Government Accountability Office reports to understand regulations and
         directives governing contractor performance evaluations. We reviewed EPA’s
         Fiscal Year 2008 Integrity Act Assurance letters prepared by the Office of
         Administration and Resources Management and the Office of Solid Waste and
         Emergency Response to determine whether they identified any weaknesses
         related to contractor performance evaluations; the letters did not identify any such
         weaknesses.

         We visited OAM in Washington, DC, and EPA Region 3 in Philadelphia,
         Pennsylvania. We interviewed COs, POs, and contracting officer representatives
         in EPA Headquarters and Regions 2, 3, 4, 5, 7, 8, and 10; OAM managers; and
         others to gain an understanding of the contractor performance evaluation process.
         We reviewed contractor performance evaluations in NIH CPS and analyzed
         Defense Contract Audit Agency (DCAA) and EPA Office of Inspector General
         (OIG) audit reports, Financial Monitoring Review (FMR) reports, EPA QAPs, the
         EPA Recovery Act Stewardship Plan, and an EPA regional implementation plan.




                                          3

                                                                                           10-R-0113


                    In July 2009, we acquired a list of Recovery Act Superfund contract awards from
                    EPA’s Financial Data Warehouse. We also requested and received an OAM list
                    of planned Recovery Act contracts. As of July 2009, EPA provided Recovery Act
                    funds to 17 different contractors by adding funds to 23 existing contracts and
                    awarding 2 new contracts. EPA awarded funds through Remedial Action
                    Contracts, Emergency and Rapid Response Services contracts, and Superfund
                    Technical Assessment and Response contracts.

                    The contracts we reviewed had 12-month periods of performance that ended
                    between June 2006 and January 2009. We determined evaluation timeliness using
                    the 95 business days defined in EPAAR.1 We selected a sample of seven
                    contracts with late evaluations and interviewed their associated COs, POs, and/or
                    CO/PO supervisors to determine why the performance evaluations were late and
                    what the process is for reviewing CO and PO work.

                    We analyzed findings from 9 FMR reports, 50 DCAA reports, and 1 OIG report
                    to identify contractor performance problems. We compared the reported
                    problems to the performance evaluations from NIH CPS to determine whether the
                    COs reflected the findings in the evaluations. We then selected 4 of 14 contracts
                    and interviewed the POs and COs to determine the extent of their knowledge of
                    the reports and how the Agency factored performance problems into the
                    evaluation process.

Prior Report
                    On December 6, 2004, the OIG issued Report No. 2005-P-00001, Response
                    Action Contracts: Structure and Administration Need Improvement. We reported
                    that EPA did not document performance evaluations in a timely and consistent
                    manner as required. EPA agreed with the report recommendations and
                    implemented corrective action. OAM’s corrective action was to conduct reviews
                    every 6 months to ensure timely completion of contractor performance
                    evaluations. The Associate Director of OAM’s Superfund/Resource Conservation
                    and Recovery Act (RCRA) Regional Procurement Operations Division stated that
                    the division had conducted 6-month contractor performance reviews but that the
                    reviews ceased as the issue became “less visible and less of a vulnerability.”




1
    The 95 business days in our analysis did not exclude holidays.


                                                            4

                                                                                 10-R-0113





                               Chapter 2

             EPA Did Not Complete Timely 

           Contractor Performance Evaluations 

          EPA had not completed 30 of 36 (83 percent) of the required contractor
          performance evaluations in a timely manner for contractors awarded Recovery
          Act funds. COs are required to complete and document the evaluation in NIH
          CPS within 95 business days after each 12 months of contract performance. On
          average, EPA completed the evaluations 109 business days late, generally because
          there was no system in place to monitor evaluation timeliness. Consequently,
          contractor past performance evaluation information was not available for EPA
          when it awarded a new Recovery Act contract totaling $5.4 million. Considering
          contractor past performance prior to award reduces the risk of providing funds to
          a contractor with a history of poor performance.

Timeframes Exist for Completing Evaluations

          As per FAR 9.104–1(c), contractors must have a satisfactory performance record
          to do business with the government. EPA and other federal agencies should be
          aware of prospective contractors’ performance before awarding new contracts,
          especially contractors that had been deficient in the past.

          EPAAR 1509.170 requires COs to complete contractor evaluations within
          95 business days after the end of each 12 months of contract performance. COs
          are required to finalize the evaluations in NIH CPS, which feeds into the U.S.
          Department of Defense Past Performance Information Retrieval System (PPIRS).
          PPIRS serves as the single, government-wide repository for contractor
          performance information.

Evaluations Not Completed in a Timely Manner

          As of June 3, 2009, 30 of the 36 evaluations in our review (83 percent) had not
          been completed within the required 95 business days (Table 2-1). We determined
          that EPA planned to add Recovery Act funds to 23 existing contracts and issue 2
          new contracts (25 total contracts).




                                          5

                                                                                     10-R-0113



          Table 2-1: Evaluation Information in NIH CPS
           Evaluation Status                                    No.        Percent
           Evaluations Completed in a Timely Manner             6            17
           Evaluations Completed Late                          21            58
           Evaluations Initiated But Not Completed              8            22
           Required Evaluations Not Initiated                   1             3
          Source: OIG analysis of evaluations in the NIH CPS as of June 3, 2009.

          Based on the contract award dates, we found that EPA should have completed
          36 annual evaluations for 18 of the 25 contracts. Based on our review of contract
          evaluation information in NIH CPS, 30 of these evaluations were late. We
          defined “late” as any performance evaluation not completed within 95 business
          days of the performance period end. The average number of days late for
          completed evaluations was 109 business days. The average number of days late
          for those not completed was 68 business days. See Appendix A for a schedule of
          performance evaluations not completed in a timely manner.

          The Superfund/RCRA Regional Procurement Operations Division (SRRPOD)
          Associate Director and Service Center Manager stated that QAPs are a tool with
          which management can oversee contractor performance evaluation timeliness.
          For example, the QAP that SRRPOD issued in January 2009 stated that on an
          ongoing basis, Service Center Managers/Team Leaders will perform centralized
          oversight and monitoring of SRRPOD’s NIH CPS system past performance data
          entry.

          Our review of 13 Agency QAPs determined that 7 did not include information on
          contractor performance evaluations. We compared the regions that included
          performance evaluation information in their QAPs to the timeliness of their
          evaluations. While regions that had performance evaluation information in their
          QAPs completed five of the six evaluations in a timely manner, these regions also
          had late evaluations. The QAPs and performance evaluations we reviewed
          showed no correlation between the existence of performance evaluation
          information in the QAP and the timeliness of the evaluations.

          As previously noted, in December 2004, the OIG issued an audit report
          (2005-P-00001) noting that EPA did not document contractor evaluations in a
          timely and consistent manner.

Various Reasons Noted for Late Evaluations
          COs and POs provided multiple reasons for not completing evaluations in a
          timely manner:

              •   Other work took priority.
              •   Staff transitioned without evaluation finalization.
              •   Staff was unfamiliar with the NIH CPS system.


                                                6

                                                                                  10-R-0113



             •	 Staff allowed the contractor additional time to provide comments on
                EPA’s evaluation.
             •	 Staff used alternative evaluation schedules that were not compliant with
                EPAAR.

          These reasons notwithstanding, we found that EPA does not have a system to
          monitor the timeliness of evaluations. OAM managers asserted that the office
          used the QAP process to monitor contractor performance evaluations. However,
          we found that not all QAPs included information on contractor performance
          evaluations. Performance evaluations were inconsistently included in QAPs
          because EPA’s current QAP policy does not require their inclusion. Additionally,
          of the six QAPs that had performance evaluation information, the information was
          not specific and made general references to conducting contractor evaluations in
          NIH CPS annually. Only the SRRPOD QAP had specific information on
          performance evaluations.

Evaluation Information May Not Be Available to Contracting Officials
          When EPA documents evaluations in an untimely manner or not at all, selection
          teams within EPA and other federal agencies do not have current contractor
          evaluation information to consider when making new contract awards. For
          example, EPA awarded a new contract totaling $5.4 million in Recovery Act
          funds to a contractor whose past performance evaluations were not completed.

          OAM officials said contractor past performance evaluations are one of many
          factors considered when assessing whether contractors are likely to be successful
          in controlling contract costs and meeting contract expectations. EPA uses other
          information, such as questionnaires to previous contractor clients, to avoid
          awarding contracts to contractors with a history of performance problems. While
          these other information sources are available, untimely evaluations may increase
          the risk that EPA and other federal agencies would award contracts to contractors
          with cost control and other performance issues.

EPA Plans to Modify QAP Policy to Meet New OMB Requirements

          The Agency plans to modify its QAP policy by June 30, 2010 to meet new OMB
          requirements. On July 29, 2009, OMB’s Office of Federal Procurement Policy
          issued a memorandum to agencies regarding improving access to, and the use of,
          contractor performance information. By December 31, 2009, OMB required
          agencies to establish and submit for review internal procedures for evaluating and
          reporting on contractor performance. The new OMB requirements emphasize the
          importance of quality performance evaluations, an item not included in EPA’s
          QAP policy. The new OMB requirements include:




                                           7

                                                                                   10-R-0113



                 . . . developing a process for evaluating and validating the quality
                 and timeliness of contractor performance evaluations, which shall
                 include corrective action plans for addressing any delinquent
                 and/or incomplete reports and performance metrics to measure
                 compliance and quality regularly.

         In December 22, 2009, OAM issued a memorandum to OMB’s Office of Federal
         Procurement Policy stating that as part of its transactional oversight, OAM would
         revise EPA acquisition handbook guidance to require that QAPs include
         contractor performance evaluations starting in March 2010. On April 15, 2010,
         OAM committed to updating the acquisition handbook by June 30, 2010.

Recommendations
         We recommend that the Assistant Administrator for Administration and
         Resources Management:

         2-1 	   In accordance with OMB’s directive, institute a process that would
                 provide management with information to monitor the timeliness and
                 quality of contractor performance evaluations.

         2-2 	   Revise its QAP requirements to include the timeliness and oversight of
                 contractor performance evaluations.

Agency Comments and OIG Evaluation
         In responding to the draft report, EPA agreed to take action to address all of the
         recommendations and provided milestone dates. The planned corrective action
         meets the intent of the report recommendations.

         •	 Recommendation 2-1. OAM plans to begin using the U.S. Department of
            Defense Contractor Performance Assessment Reporting System (CPARS) on
            May 1, 2010, to replace the NIH CPS. According to EPA, CPARS provides
            an enhanced and more effective capability to monitor the timeliness and
            quality of contractor evaluations. COs must also certify the accuracy and
            completeness of the information entered.

         •	 Recommendation 2-2. OAM will revise the acquisition handbook by
            June 30, 2010, to include oversight of contractor past performance evaluation
            reviews as part of the QAPs.




                                           8

                                                                                   10-R-0113





                               Chapter 3

  EPA’s Contractor Performance Evaluations Do Not 

    Consider All Available Sources of Information 

          COs did not consider all available sources of information when preparing
          performance evaluations for contractors that were awarded Recovery Act funding.
          In accordance with FAR 42.1503(a), when preparing a contractor performance
          evaluation, COs should use information from the technical and contracting
          offices. EPA did not always provide the FMR, DCAA, and OIG report directly to
          COs, and COs found the database in which OAM housed the information difficult
          to access. As a result, EPA awarded $109 million in Recovery Act funds to
          contractors with cost control and other performance issues.

Federal Acquisition Regulation Requires Soliciting Input

          FAR 42.1503(a) requires agencies to have procedures that solicit input for the
          performance evaluation from technical, contracting, program, and administrative
          contracting offices and, where appropriate, end users of the product or service.
          EPA’s acquisition handbook and EPAAR 1509.170-5 also require performance
          evaluations of contractors. SRRPOD described this function as a normal part of a
          CO’s duties.

          SRRPOD managers said COs are responsible for using FMR, DCAA, and OIG
          reports during pre-award and contractor performance evaluations. FMRs are
          internal audits of a contract performed by the financial analysts of OAM’s
          Financial Analysis and Oversight Service Center. DCAA audits are generally
          contractor specific, and an issue identified in a DCAA audit report usually applies
          equally to all of a contractor’s federal contracts. The OIG issues audit reports of
          EPA and its contractors to promote economy and efficiency and to prevent and
          detect fraud, waste, and abuse.

EPA Did Not Consider FMR, DCAA, or OIG Reports

          EPA’s process to evaluate contractor performance did not consider FMR, DCAA,
          or OIG reports. EPA planned to add Recovery Act funds to 23 existing contracts
          and to issue 2 new contracts. We reviewed these contracts to determine whether
          issues identified in applicable FMR, DCAA, or OIG reports were reflected in
          performance evaluations. Of the 25 contracts, 19 had FMR, DCAA, or OIG
          reports issued between 2006 and 2009. We found that 15 contracts had relevant
          performance issues identified in the audit reports. Of those, the reported issues
          were not reflected in performance evaluations of 11 contracts (Table 3-1).




                                           9

                                                                                                     10-R-0113



                 Table 3-1: Contracts with Reported Issues Not Reflected in Performance Evaluations
                  Number of contracts receiving Recovery Act funds reviewed                                    25
                  Number of contracts with FMR, DCAA, or OIG reports issued (2006-2009)                        19
                  Number of contracts with relevant performance issues identified in reports                   15
                  Number of contracts where relevant performance issues were not reflected                     11
                  in evaluations
                 Source: OIG analysis of contracts.

                 For example, EPA conducted an FMR for a contractor in 2006 and noted issues
                 relating to employee training on the difference between indirect and direct costs
                 and deficiencies in timekeeping policy and procedures. DCAA reported similar
                 issues in 2008. In 2009, an OIG site visit to the contractor noted these
                 deficiencies continued to exist. However, under cost control in the contractor
                 performance evaluation, the contractor received scores of “4 – excellent” for the
                 periods ending January 2007 and 2009, and a score of “3 – good” for the period
                 ending January 2008. EPA had awarded the contractor $8.5 million in Recovery
                 Act funds as of November 2009.

                 EPA issued an FMR for another contractor in 2007 and noted a business relations
                 issue and two cost control issues. The contractor did not show all the indirect cost
                 rates in the invoices, preventing the PO from verifying the billed indirect costs. In
                 addition, the contractor did not comply with contract clauses requiring that the
                 contractor compare average cost per labor hour to total actual cost per labor hour.
                 Further, the contractor did not meet the required Small Disadvantaged Business
                 Concerns, Women-Owned Small Business Concerns, and Service-Disabled
                 Veterans Concerns. The annual period of performance for the contract ended
                 December 31, 2007. The CO completed the performance evaluation on August 5,
                 2008, and gave the contractor performance evaluation scores of “4 – excellent” in
                 Cost Control and Business Relations. EPA reported to the OIG that it planned to
                 award the contractor $300,000 in Recovery Act funds.2

                 The four COs interviewed relied primarily on the performance evaluation
                 information collected by the PO. POs are responsible for collecting performance
                 evaluation data from the contracting officer representatives and documenting
                 contractor performance evaluations in NIH CPS. Only one of the four POs
                 interviewed received copies of the FMR, DCAA, or OIG reports.

                 COs told us they used contractor performance evaluations when considering the
                 award of new contracts or option years under existing contracts. Incorporating
                 deficiencies identified in FMR, DCAA, and OIG reports into performance
                 evaluations would result in more comprehensive evaluations.



2
 Planned EPA obligations were reported in lieu of actual obligation amounts because EPA has yet to award the
planned obligation.


                                                       10 

                                                                                      10-R-0113


Contracting Officers Are Not Aware of Available Contractor
Performance Information

          COs may not be aware of FMR, DCAA, and OIG reports about a contractor they
          are evaluating. Each type of report is distributed differently, resulting in the CO
          being potentially unaware of a report that may contain information the CO should
          consider when evaluating the contractor. The distribution of each type of report is
          shown in Table 3-2.

          Table 3-2: Distribution Process for FMR, DCAA, and OIG Reports
                                                           Distribution
                                                                                    Financial
                                                       CO for        All COs      Administrative
              Type of              OAM                Contract     Working with    Contracting
              Report             Database             Reviewed      Contractor       Officer
           FMR                       X                    X
           DCAA                     X                                     X             X
           OIG                                                                          X
          Source: Interviews with EPA staff.

          COs provided several reasons for not knowing about FMR, DCAA, and OIG
          reports:

              •	 COs were not notified that Financial Administrative Contracting Officers
                  received the DCAA reports.
              • 	 While COs could access the centrally available database to check whether
                  reports were available, some did not and others reported difficulty in
                  accessing the database.
              •	 COs were not aware of reports that addressed a contractor’s actions in
                  another EPA region.

Contracts May Be Awarded to Contractors with Performance and
Cost Control Issues

          When EPA awarded funding to contractors and did not consider all sources of
          information, it increased the risk of fraud, waste, abuse, and mismanagement of
          Recovery Act funds. EPA awarded $109 million in Recovery Act funds to
          contractors with cost control and other performance issues.

          For example, between June and September 2009, EPA awarded $31 million in
          Recovery Act funds to a contractor for whom an FMR and OIG report identified
          performance issues. In 2007, an FMR report noted four cost control issues and
          one business relations issue, including the contractor double-billing EPA for
          subcontract costs. The annual period of contract performance ended June 2007,
          and EPA provided evaluation scores of “4 – excellent” in Cost Control and


                                               11 

                                                                                   10-R-0113


         Business Relations. The second annual period of performance ended in June
         2008, and EPA provided performance evaluation scores of “5 – outstanding” in
         Cost Control and “3 – good” in Business Relations, even though problems
         continued. In April 2009, the OIG issued a memorandum to the Acting Regional
         Administrator, Region 5, regarding performance and cost control issues. Region
         5 stated it would consider the issues when deciding whether to award future
         contracts.

         EPA must ensure that recipients are able to effectively administer and manage
         Recovery Act–funded projects. Contractors with internal control weaknesses may
         unknowingly or knowingly violate federal regulations. One of the crucial
         accountability objectives in OMB’s Recovery Act Implementation Guidance is to
         ensure “funds are used for authorized purposes and potential for fraud, waste,
         error, and abuse are mitigated.” Contractor performance evaluations should be an
         integral factor in awarding new contracts and option periods, and EPA should
         consider information in FMR, DCAA, and OIG reports.

Recommendations

         We recommend that the Assistant Administrator for Administration and
         Resources Management:

         3-1 	   Maintain FMR, DCAA, and OIG reports in an electronic system that COs
                 can access.

         3-2	    Require COs to access the centrally available OAM database for all
                 applicable reports and consider results in annual contractor performance
                 evaluations.

Agency Comments and OIG Evaluation
         In responding to the draft report, EPA agreed to take action to address all of the
         recommendations and provided milestone dates. The planned corrective action
         meets the intent of the report recommendations.

         •	 Recommendation 3-1. OAM expects to consolidate all FMR, DCAA, and
            OIG reports on a shared server by June 2011. In the interim, OAM has
            undertaken enhancements to the report distribution process to ensure that all
            relevant COs and their operations managers directly receive the reports.

         •	 Recommendation 3-2. OARM will post a hot tips article on the OAM’s
            Intranet site by June 2010, encouraging all COs to use information available
            in all reports and consider the results in the annual contractor performance
            evaluations.




                                          12 

                                                                                                                                          10-R-0113



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1        Action Official             Date      Amount      Amount

    2-1       8     In accordance with OMB’s directive, institute a          O       Assistant Administrator for   5/01/2010
                    process that would provide management with                          Administration and
                    information to monitor the timeliness and quality of              Resources Management
                    contractor performance evaluations.

    2-2       8     Revise its QAP requirements to include the               O       Assistant Administrator for   6/30/2010
                    timeliness and oversight of contractor performance                  Administration and
                    evaluations.                                                      Resources Management

    3-1      12     Maintain FMR, DCAA, and OIG reports in an                O       Assistant Administrator for   6/30/2011
                    electronic system that COs can access.                              Administration and
                                                                                      Resources Management

    3-2      12     Require COs to access the centrally available OAM        O       Assistant Administrator for   6/30/2010
                    database for all applicable reports and consider                    Administration and
                    results in annual contractor performance                          Resources Management
                    evaluations.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                 13 

                                                                                                               10-R-0113


                                                                                                          Appendix A

          OIG Review of Planned Recovery Act Contracts
Table A-1: Schedule of Performance Evaluations Not Completed in a Timely Manner

                                                                              OIG Analysis of Evaluations
     OIG                                                                Ongoing Count of Evaluations:
 Calculation -                                                                         Not                            No.
  Required          Contract         EPA Evaluations                         Not   Completed       Not               Days
 Evaluations        Number          Periods in NIH CPS        Timely Timely Timely and Late     Initiated            Late
       1          EP-S1-06-01     07/03/2006-07/04/2007         N             X                                       105
       2                          07/05/2007-07/04/2008         N             X                                       144
       3          EP-S1-06-03     09/22/2006-09/21/2007         N             X                                        26
       4                          09/21/2007-09/20/2008         N             X                                        33
       5          EP-W-05-049     10/01/2005-09/30/2006         Y      X                                                -
       6                          10/01/2006-09/30/2007         N             X                                       143
       7                          10/01/2007-09/30/2008         N                       X                              82
       8          EP-S3-07-03     06/01/2007-05/31/2008         N             X                                       162
       9          EP-S3-07-05     07/01/2007-06/30/2008         Y      X                                                -
     10           EP-S3-07-07     06/21/2007-06/20/2008         N             X                                         9
     11           EP-S3-07-06     08/09/2007-08/08/2008         N             X                                        95
     12           68-W-99-043     06/17/2005-06/16/2006         N             X                                        13
     13                           06/17/2006-06/16/2007         N             X                                       250
     14                           06/17/2007-06/17/2008         N                                   X                 158
     15           EP-S4-07-04     09/20/2007-09/19/2008         N                       X                              89
     16           EP-S5-06-01     03/14/2006-03/13/2007         N             X                                       337
     17                           03/14/2007-03/13/2008         N             X                                        75
     18           EP-S5-06-02     06/29/2006-06/28/2007         N             X                                       199
     19                           06/29/2007-06/28/2008         N             X                                        46
     20           EP-W-06-021     02/24/2006-02/23/2007         Y      X                                                -
     21                           02/23/2007-02/24/2008         Y      X                                                -
     22           EP-W-06-004     11/21/2005-11/20/2006         Y      X                                                -
     23                           11/21/2006-01/20/2007         N             X                                        18
     24                           11/21/2007-11/20/2008         N                       X                              45
     25           EP-W-06-006     01/13/2006-01/12/2007         Y      X                                                -
     26                           01/13/2007-01/12/2008         N             X                                        93
     27                           01/13/2008-01/12/2009         N                       X                               8
     28           68-S7-04-01     12/11/2005-12/10/2006         N             X                                       282
     29                           12/11/2006-12/10/2007         N             X                                       151
     30                           12/11/2007-12/10/2008         N                       X                              31
     31            EP-S5-06-04    09/14/2006-09/14/2007         N             X                                        36
     32                           09/14/2006-09/13/2008         N                       X                              93
     33            EP-S7-06-02    01/01/2006-12/31/2006         N             X                                        10
     34                           01/01/2007-12/31/2007         N             X                                        62
     35                           01/01/2006-12/31/2008         N                       X                              16
     36            EP-S4-07-02    09/20/2007-09/19/2008         N                       X                              89
                                                                       6      21        8           1

Source: OIG analysis of contractor performance evaluations.
Note: 	   This table lists 13 of the 17 contractors we reviewed during this audit. The additional four contractors
          did not have evaluations required during our field work.




                                                             14
                                                                                       10-R-0113


                                                                                   Appendix B

                  Agency Response to Draft Report


                                         April 15, 2010

MEMORANDUM


SUBJECT:       Response to Draft Audit Report: EPA Needs to Improve Its Contractor
               Performance Evaluation Process for Contractors Receiving Recovery
               Act Funds, Project OA-FY09-0880

FROM:          Craig E. Hooks
               Assistant Administrator

TO:            Janet Kasper
               Director of Contracts and Assistance Agreement Audits
               Office of the Inspector General

       Thank you for the opportunity to comment on the draft report entitled “EPA Needs to
Improve Its Contractor Performance Evaluation Process for Contractors Receiving Recovery Act
Funds,” dated March 8, 2010. We are in general agreement with the findings and
recommendations, and will ensure all corrective actions are completed as required.

Comments on Recommendations:

Recommendation 2-1: In accordance with OMB’s directive, institute a process that would
provide management with information to monitor the timeliness and quality of contractor
performance evaluations.

Response: We concur with this recommendation. Starting May 1, 2010, the Office of
Administration and Resources Management (OARM) will begin using the Department of
Defense’s Contractor Performance Assessment Reporting System (CPARS), in lieu of the
National Institute of Health’s Contractor Performance System (CPS), which has been used for
the past 15 years. CPARS is a newer system, which will allow the Agency to monitor the
timeliness and due dates of contractor evaluations in a more effective manner, as well as provide
enhanced reporting capabilities to all levels of contract management. CPARS also provides
training and templates for users to ensure that substantive and quality comments are entered
regarding a contractor’s performance while requiring that the Contracting Officer (CO) or those
designated as the Assessing Official review and certify the accuracy and completeness of the
information entered.




                                               15 

                                                                                         10-R-0113




Recommendation 2-2: Revise its QAP requirements to include the timeliness and oversight
of contractor performance evaluations.

Response: We concur with this recommendation. The Acquisition Handbook, Chapter 4.2,
“Quality Assessment Plans,” is being revised to include contractor Past Performance Evaluation
Reviews as an oversight activity. We expect the revised Chapter to be finalized by June 30,
2010

Recommendation 3-1: Maintain FMR, DCAA, and OIG reports in an electronic system
that COs can access.

Response: We concur with this recommendation. These reports currently reside in the Open
Doc/Content Management System Hummingbird Doc Open (PD DOCS) electronic system,
which is available to all Headquarters contracting staff. Unfortunately, Research Triangle Park,
Cincinnati and the Regional COs cannot access this system. We expect to consolidate all such
reports eventually on a shared server. However, this is presently a long-term goal which will
occur after the implementation of EPA’s Acquisition System which will be completed by mid
December 2010. We anticipate that the reports will be consolidated on a shared server by June
2011. In the interim, significant enhancements have been undertaken over the past three months
to the report distribution process, to ensure that all cognizant COs and their operations managers
directly receive Financial Monitoring Review (FMR), Defense Contract Audit Agency (DCAA),
and Office of Inspector General (OIG) audits reports.

Recommendation 3-2: Require the COs to access the centrally available OAM database for
all applicable reports and consider results in annual contractor performance evaluations.

Response: We concur with this recommendation. OARM will post a hot tips article on the
Office of Acquisition Management’s intranet site by June 2010, encouraging all COs to use
information available in all reports, and consider the results in the annual contractor performance
evaluations.

Should you have any questions regarding this response, please contact John Gherardini, Acting
Director, Office of Acquisition Management, at (202) 564-4310.

cc: 	John Gherardini
    Raoul Scott
    Jennifer Cranford
    Cris Thompson
    Tom O’Connell
    Joan Wooley
    John Oliver
    Lisa Maass
    Bernie Davis-Ray
    Sandy Womack-Butler
    Brandon McDowell



                                                16 

                                                                                   10-R-0113


                                                                               Appendix C


                                   Distribution
Office of the Administrator
Assistant Administrator, Office of Administration and Resources Management
Acting Director, Office of Acquisition Management, Office of Administration and
    Resources Management
Director, Office of Administration, Office of Administration and Resources Management
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Administration and Resources Management
Acting Inspector General




                                             17 

